No. 19IN THE

ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY INNOVATION LTD., and
MAX-PLANCK-GESELLSCHAFT ZUR FORDERUNG DER WISSENSCHAFTEN E.V.,

Petitioners,
V.

MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO MEDICAL LABORATORIES, and
MAYO CLINIC,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Seth P. Waxman, a member of the
bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,967 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.l(d).
Executed on October 1, 2019.

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

